No.20-532
In The

Supreme Court of the United States
XIAOHUA HUANG PRO SE
Petitioner,
vs.

HUAWEI TECHNOLOGY LTD.
Respondents.
*>

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
for The Federal Circuit
PETITION FOR REHEARING

Xiaohua Huang pro se
P.O. Box 1639, Los Gatos, CA95031
Tel: (669)273 5633
xiaohua_huang@hotmail.com

February 3, 2021

1

PETITION FOR REHEARING
Pursuant to Supreme Court Rule 44.1, Xiaohua Huang respectfully petitions for
rehearing of the Court’s decision issued on January 11, 2021. Xiaohua Huang v.
Huawei Technology Co. Ltd. No.20-532 Mr.Huang moves this Court to grant this
petition for rehearing and consider his case with merits briefing and oral argument.
Pursuant to Supreme Court Rule44.1, this petition for rehearing is filed within 25
days of this Court’s decision in this case.
Huang invented the high speed and low power Ternary Content Addressable
Memory (TCAM) which were granted to US patent 6744653, 6999331 and RE45259.
Those patents have made the Internet Switches hundreds of time faster. Huawei
has used those patents to achieve its technical and business success and has
benefited hundreds of billion USD.
This case has to be granted for rehearing because that this case is a special
case that both U.S. District Court of Eastern Texas and US Court of Appeal for the
Federal Circuit lost its justice to Huawei’s perjured declaration and only took
Huawei’s perjured declaration to sanction Huang $600K and made decision which
are completely contrary to the law and the previous case. The case must be a
sample case to show that the US Federal legal system completely lost justice if it is
not granted for rehearing.
1. The decision on case 2:15-cv-1413(casel) is completely based on the perjured
declaration of Huawei. Now Plaintiff has just new findings that the TCAM Huawei
licensed from eSilicon Corporation read the claims of the 6999331 and 6744653
patent, so the Magistrate Judge’s Order Dkt.134 in case 2:15-cv-1413 is completely
based on the perjured declaration of Huawei. Also the Magistrate Judge of District
Court erroneously stated that the reverse engineering data evidence were not
produced during the Discovery and the Judge in the US Court of Appeal for the

2

Federal Circuit found the Reverse Engineering Data evidence were produced one
day earlier prior to the deadline of the Discovery. But the two Court wants to
punish Huang for the cause that Huang does not want to share revenue with an
attorney. The easel should not be dismissed and the District Court should not
sanction Mr. Huang $600K to pay Huawei’s attorney fee which is also based on
Huawei’s perjured declaration. The US Court of Appeal for Federal Circuit
completely took Huawei’s perjured declaration and the false statement of District
Court. Huawei, the District Court and US Court of appeal for the Federal Circuit
have harmed Huang much more that Goodyear did to Haeger “Goodyear Tire &
Rubber Co. v. Haeger, 137 S. Ct. 1178, 1186 (2017)”.
2. The case 2:16-cv-947 (case2) should not be bared by the easel because the
case2 was filed when the easel is not ruled and the case2 can be proved. But the
District Court has Case2 STAYED for more than two years and deprived Huang’s
opportunity to prove the infringement. Before giving Huang any chance the District
Court used the claim preclusion to bar the case2. The device accused in case 2 are
different from the device accused in easel in terms of the model, function, the chips
used and the architecture and structure of the devices. Without any proof both
District Court and the US Court of appeal for the Federal Circuit just simply
conclude that the chips used in the two case are same, the claims in the two cases
are same and dismissed the case2. Two Court’s decision are completely
contradictive to the case (ACUMED LLC v. Stryker Corp., 525 F.3d 1319 (Fed. Cir.
2008)).
3. When both District Court and US Court of appeal for the Federal Circuit made
erroneous decision, will Supreme Court reverse their decision. Huawei’s lawyer told
and command the Magistrate Judge : “ let him (Huang) pay money(Huawei’s
attorney fee)”. Magistrate Judge said : “ He does not have money.” The District
Court sanctioned me to pay Huawei $600K and set Huawei free to pay $billion in
the United States. Their conduct is no different from robbing and stealing money.
Should the Supreme Court rehear this case as Justice requires.

3

For the reasons set forth in this Petition, Xiaohua Huang respectfully requests
this Honorable Court grant rehearing and his Petition for a Writ of Certiorari.
Respectfully submitted,

Xiaohua Huang pro se
P.O. Box 1639, Los Gatos, CA95031
Tel: (669)273 5633
xiaohua_huang@hotmail.com

CERTIFICATE OF COUNSEL

.

I hereby certify that this petition for rehearing is presented in good faith and
not for delay, and that it is restricted to the grounds specified in Supreme Court
Rule 44.2.
Respectfully submitted,

Xiaohua Huang pro se
P.O. Box 1639, Los Gatos, CA95031
Tel: (669)273 5633
xiaohua_huang@hotmail.com

